TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION
                            Office of Inspections and Evaluations




                                        RECOVERY ACT

                    IRS’s Implementation of the Office of
                  Management and Budget Guidelines for the
                    American Recovery and Reinvestment
                                Act of 2009




                                          March 31, 2010

                           Reference Number: 2010-IE-R003




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                            DEPARTMENT OF THE TREASURY
                                                                  WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                             March 31 2010


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT



 FROM:                                        R. David Holmgren
                                              Deputy Inspector General for Inspections and Evaluations

 SUBJECT:                                     Final Interim Inspection Report – IRS’s Implementation of the Office
                                              of Management and Budget Guidelines for the American Recovery and
                                              Reinvestment Act of 2009 (# IE-09-011-A)

 This report presents the results of our inspection to assess whether IRS has properly complied
 with mandatory requirements identified by the Office of Management and Budget (OMB) for
 implementing the American Recovery and Reinvestment Act (ARRA) of 2009 1 regarding:
       1. Transparency and reporting;
       2. Information collection and dissemination;
       3. Budget execution; and
       4. Risk management.
 For example, the information collection and dissemination guidance provides that agencies must
 ensure all funds are clearly distinguishable from non-ARRA funds in all agency financial,
 business (e.g., grant and contract writing systems), and reporting systems. OMB also requires
 that agencies provide weekly reports that allow the Congress and taxpayers to track and monitor
 use of the funds.
 This is expected to be the first in a series of inspections regarding compliance with OMB’s
 guidance for implementing ARRA. The ARRA provides separate funding to the Treasury




 1 Public Law No. 111-5, February 17, 2009.
                                 IRS’s Implementation of the Office of
                               Management and Budget Guidelines for the
                                 American Recovery and Reinvestment
                                             Act of 2009

Inspector General for Tax Administration through September 30, 2013, to be used in oversight
activities of IRS programs. This inspection was conducted using ARRA funds.

Interim Results
The OMB issued two memorandums 2 that provided guidance for carrying out and reporting on
the programs and activities enacted in the ARRA. The IRS has implemented a comprehensive
process that is compliant with the guidelines OMB established.

The IRS has the reporting processes in place that should address OMB’s requirements. These
processes will allow for transparency and accountability in the use of ARRA administrative
funds and will provide IRS the ability to identify and track these expenditures separately from its
regular appropriations. The IRS has also submitted the required weekly reports summarizing
administrative costs incurred.

Recommendation
We made no recommendations in this report.
IRS reviewed the draft report, concurred with the facts and offered a suggestion, which we
incorporated into this final report.
Please contact me at (202) 927-7048 if you have questions or Kevin Riley, Director, Inspections
and Evaluations at (972) 249-8355.




2 M-09-10, Initial Implementing Guidance for the American Recovery and Reinvestment Act of 2009, February 18, 2009 and M-09-15, Updated Implementing Guidance for the
American Recovery and Reinvestment Act of 2009, April 3, 2009.




                                                                                                                                                                        2
                          IRS’s Implementation of the Office of
                        Management and Budget Guidelines for the
                          American Recovery and Reinvestment
                                      Act of 2009



                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The IRS Has Implemented a Comprehensive Reporting Process that
          Addresses the Office of Management and Budget’s Implementing
          Guidance for the American Recovery and Reinvestment Act of 2009.........Page 3

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 6
          Appendix II – Major Contributors to This Report ........................................Page 8
          Appendix III – Report Distribution List .......................................................Page 9
         IRS’s Implementation of the Office of
       Management and Budget Guidelines for the
         American Recovery and Reinvestment
                     Act of 2009



                     Abbreviations

ARRA           American Recovery and Reinvestment Act
OMB            Office of Management and Budget
SAO            Senior Accountable Official
                    IRS’s Implementation of the Office of
                  Management and Budget Guidelines for the
                    American Recovery and Reinvestment
                                Act of 2009



                                     Background

On February 17, 2009, President Obama signed into law the American Recovery and
Reinvestment Act (ARRA) of 2009, P.L. 111-5. The Office of Management and Budget (OMB)
issued Guidance for the American Recovery and Reinvestment Act of 2009; in February 2009 and
then updated the guidance in April 2009. The purpose is to establish a set of government-wide
requirements and guidelines that Federal agencies must immediately implement or prepare for to
effectively manage activities under the ARRA.
OMB outlines necessary enhancements to standard processes for awarding and overseeing funds
to meet accelerated timeframes and other unique challenges posed by ARRA transparency and
accountability framework.
Specifically, OMB provides guidance to effectively manage and report on the programs and
activities enacted in ARRA. Four critical elements of the OMB guidance are:
   1. Transparency and reporting;
   2. Information collection and dissemination;
   3. Budget execution; and,
   4. Risk management.
The information collection and dissemination guidance provides that agencies must ensure all
funds are clearly distinguishable from non-ARRA funds in all agency financial, business (e. g.,
grant and contract writing systems), and reporting systems. OMB also requires that agencies
provide weekly reports that allow the Congress and taxpayers to track and monitor use of the
funds.
To accomplish these tasks, ARRA provided the IRS with a total of $203 million for the
expenses, $80 million for Health Insurance Tax Credit, and $123 million for necessary changes
to IRS’s processing system. These funds are available for IRS’s use beginning Fiscal Year 2009
through Fiscal Year 2011. All ARRA funds for implementation of the tax credit and tax
provisions are for administrative expenses only.
ARRA funds were used for the Health Coverage Tax Credit program to update systems and
products to implement ARRA changes. These changes included expanding capacity to provide
easy access, reducing burden for eligible taxpayers claiming the Health Coverage Tax Credit,
and ensuring compliance with the law.




                                                                                         Page     1
                                   IRS’s Implementation of the Office of
                                 Management and Budget Guidelines for the
                                   American Recovery and Reinvestment
                                               Act of 2009

 Implementation of Health Coverage Tax Credit will include:
                                  •      education and outreach;
                                  •      guidance and instructions;
                                  •      IRS processing and programming;
                                  •      compliance; and,
                                  •      reporting. 1


The purpose of IRS’s Tax Provisions Implementation Program is to ready IRS systems and
products to enable taxpayers to take advantage of new tax provisions in a timely manner. ARRA
contained enhanced or new credits for both the individual and business taxpayers and were
incorporated in this program.
This review was performed at the IRS National Headquarters in Washington, D.C., in the Office
of Director for Collection Policy, the Senior Accountable Official (SAO) for the ARRA
activities, during the period April 2009 through November 2009. We limited this inspection to
IRS’s compliance with the guidance outlined by OMB. We conducted this inspection in
accordance with the President’s Council on Integrity and Efficiency Quality Standards for
Inspections. Detailed information on our inspection objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




1 Education and outreach activities are designed to assist taxpayers in determining whether various provisions apply to them specifically. Examples of these activities include
issuing news releases, and providing up-to-date information on www.irs.gov.


                                                                                                                                                                     Page         2
                   IRS’s Implementation of the Office of
                 Management and Budget Guidelines for the
                   American Recovery and Reinvestment
                               Act of 2009



                                Results of Review

The IRS Has Implemented a Comprehensive Reporting Process that
Addresses the Office of Management and Budget’s Implementing
Guidance for the American Recovery and Reinvestment Act of 2009
The OMB guidance outlined the government-wide requirements that Federal agencies were to
immediately implement or prepare for in order to effectively manage activities under the ARRA.
Agencies were required to appoint an SAO to oversee ARRA activities. The guidance addresses
the responsibilities of the SAO to oversee implementation of ARRA. IRS’s reporting processes
addresses OMB’s four critical elements: transparency and reporting; information collection and
dissemination; budget execution; and, risk management.
The IRS designated a senior level executive as SAO. The SAO has overall oversight and
coordination responsibilities for implementing ARRA. The SAO is knowledgeable and has
significant involvement in the ARRA implementation for the organization.

1. Transparency and Reporting: The IRS timely reported to both the Congress
and taxpayers its expenditures and benefits of ARRA funds with the level of
transparency and accountability envisioned in ARRA.

The IRS was following the OMB ARRA guidelines for reporting ARRA expenditures. The
IRS’s expenditures of ARRA funds are transparent to the public. Public benefits of these funds
are reported clearly, and posted to www.Recovery.gov in a timely manner.
The ARRA Program-specific Plans and Weekly Financial Activity Reports are two areas that
specifically address transparency and reporting for the IRS. The Program-specific Plans, and the
Weekly Financial and Activity Reports were posted on www.Recovery.gov, once approved by
OMB and the SAO consistent with the OMB guidelines. These activities reflect the
implementation and oversight of the total funds provided by ARRA.
We reviewed two Program-specific Plans, and determined that the plans met the required OMB
guidelines. Each plan contained the required data elements for Program-specific Plans as
outlined in the Agency and Program Data Elements, Appendix 3. The plans included all
required data elements, such as Objectives, Activities, Characteristics, and Delivery Schedule.
We also evaluated Weekly Financial Activity Reports from the April 2009 through
November 2009 timeframe, one report each month, and determined that these reports complied
with OMB guidelines. The Weekly Financial and Activity Reports posted on
www.Recovery.gov had the required content and were populated with required data fields

                                                                                        Page      3
                    IRS’s Implementation of the Office of
                  Management and Budget Guidelines for the
                    American Recovery and Reinvestment
                                Act of 2009

outlined in the OMB Data Definitions - Financial Activity Report. The reports appropriately
included the following data fields: Agency/Bureau; Treasury Appropriation Fund Symbol
(TASF); Award Type; Total Obligations; and, Total Gross Outlays.
The SAO and the Chief Financial Officer reviewed and approved the Weekly Financial Activity
Reports prior to sending them to the Department of the Treasury. Further, IRS’s ARRA
Executives Steering Committee approved the IRS’s ARRA Program-specific Plans that were
posted on www.Recovery.gov.
The IRS also achieves the objective of transparency and reporting on www.Recovery.gov by
outlining how it used ARRA funds, and by posting the total obligations and gross outlays for
these funds on the website. All documents were reviewed and approved by the SAO or his/her
designee.

2. Information Collection and Dissemination: The IRS established a page on its
existing website dedicated to ARRA that is linked to www.Recovery.gov and
provides all bureau-specific information related to the ARRA.

The IRS is complying with the existing OMB guidelines regarding information collection and
dissemination. We reviewed a Funding Notification Report sent to the Department of the
Treasury that outlines contract types, amounts, and ARRA versus non-ARRA expenditures.
IRS’s financial and reporting systems clearly distinguish between ARRA funding and
non-ARRA activities.
We reviewed two communications items posted on www.Recovery.gov and found they
met the recommended intent of the OMB guidelines.
The SAO designated the Information Technology Office to maintain IRS’s ARRA content on
their website. The Office of Communications approves all IRS’s major communications
releases.

3. Budget Execution: The IRS established internal fund codes that separately
track obligations and gross outlays related to ARRA funds.

We were able to determine that the IRS is complying with the existing OMB guidelines
regarding budget execution reporting. We verified compliance by reviewing the Weekly
Financial Activity Reports and the Funding Notification Reports that outlines contract types,
amounts, and ARRA verse non-ARRA expenditures.
IRS’s ARRA expenditures are reported and tracked separately. The IRS uses separate Treasury
Appropriation Fund Symbols to track and report apportionments, allotments, obligations, and
disbursements. This is consistent with OMB guidelines that require agencies to ensure all funds
are clearly distinguishable from non-ARRA funds in all agency financial, business, and reporting
systems.

                                                                                         Page   4
                    IRS’s Implementation of the Office of
                  Management and Budget Guidelines for the
                    American Recovery and Reinvestment
                                Act of 2009

The IRS proactively addressed information technology system application changes affected by
ARRA. System and programming changes frequently require long lead times to implement.
IRS’s early start of work on ARRA activities required IRS’ procurement staff to initially issue
ARRA task orders using non-ARRA funds. We were informed that these orders have
subsequently been reclassified as ARRA funds.

4. Risk Management: The risk considerations have been documented for
Program-specific Plans with the required content and populated with data fields
as outlined in the OMB ARRA Guidance for Risk Management.

IRS is adequately addressing Risk Management. We determined that the SAO had significant
knowledge and involvement in the Risk Management for the organization.
We reviewed the IRS Risk Management Assessments, Risk Impact Analysis, and Risk
Mitigation Plans for each Program-specific Plan and found that they complied with the OMB
guidelines as outlined in the risk framework provided in Chapter 3 of the OMB Guidelines. The
plans also contained the appropriate data elements including; Risk Descriptions, Mitigation
Descriptions, Assessment Measures, Triggers for Contingency plans, and Responsible Office and
Officials. IRS assessed their risk as low with the exception of the First Time Homebuyer Credit
that was rated as medium risk.
The IRS has a designated Risk Management Council with participation by the SAO. Their
representative at the Department of the Treasury is the Chief Financial Officer. The
implementation of ARRA activities in the IRS is overseen by an Executive Steering Committee.
The committee consists of the senior level executives in IRS representing every major function
and business unit. From January through March 2009, IRS executives met weekly, then monthly
through August, to review progress on all ARRA activities. Since August, progress on ARRA
activities have been reviewed ad hoc during other regular IRS senior executive meetings for
related topics such as Filing Season Readiness and implementation of the Workers,
Homeownership, and Business Assistance Act of 2009. Executives in each IRS operating
division are responsible for reviewing and approving ARRA plans and ensuring activities in
those plans are completed timely while assessing and mitigating risks.




                                                                                         Page     5
                     IRS’s Implementation of the Office of
                   Management and Budget Guidelines for the
                     American Recovery and Reinvestment
                                 Act of 2009

                                                                                  Appendix I

        Detailed Objective, Scope, and Methodology

The overall objective of the review was to determine that IRS has properly complied with the
ARRA reporting requirements established by OMB guidance in regards to transparency and
reporting, information collection and dissemination, budget execution, and risk management.
To accomplish our objective we determined:
   A.     If an SAO had been appointed. OMB ARRA Guidance, Section 3.3.
   B.     If the SAO or his/her designee approved the Agency/Bureau Major Communications
          releases. OMB ARRA Guidance Section 2.2.
   C.     If the SAO or his/her designee approved the Agency/Bureau Weekly Financial and
          Activity Reports. OMB ARRA Guidance Section 2.4.
   D.     If the SAO or his/her designee approved the Agency/Bureau Program-specific
          Recovery Act Plans. OMB ARRA Section 2.8.
   E.     If the SAO or his/her designee completed a risk management matrix. OMB ARRA
          Section 3.4.
   F.     If the SAO or his/her designee established accountability internal fund codes and
          separately tracked apportionments, allotments, obligations, and gross outlays related
          to ARRA funds. OMB ARRA Section 4.3.
Additionally we:
   A. Interviewed members of the ARRA Executive Committee, or designated employees
      responsible for managing and tracking ARRA activities.
   B. Reviewed Funding Notification Reports that showed ARRA funds obligated to date.
   C. Reviewed ARRA Risk Assessments for Program-specific Plans, Risk Mitigation Plans,
      Risk Management/Internal Control Program Certifications, and Monthly Progress
      Reports.
   D. Reviewed two IRS Program-specific Plans posted on www.Recovery.gov.
   E. Reviewed seven Weekly Financial and Activity Reports posted on www.Recovery.gov,
      one report posted each month, April through October 2009.
   F. Reviewed two Major Communication Releases posted on www.Recovery.gov.


                                                                                        Page      6
               IRS’s Implementation of the Office of
             Management and Budget Guidelines for the
               American Recovery and Reinvestment
                           Act of 2009

G. Reviewed www.Recovery.gov and the IRS website specifically related to ARRA
   activities.




                                                                                Page   7
                   IRS’s Implementation of the Office of
                 Management and Budget Guidelines for the
                   American Recovery and Reinvestment
                               Act of 2009

                                                            Appendix II

                 Major Contributors to This Report

Kevin P. Riley, Director
Stanley Rinehart, Supervisory Program Analyst
Mel Thomas, Program Analyst
Freddie Ephraim, Program Analyst




                                                                 Page   8
                  IRS’s Implementation of the Office of
                Management and Budget Guidelines for the
                  American Recovery and Reinvestment
                              Act of 2009

                                                                 Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner - Attention: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Commissioner for Small Business/Self-Employed Division SE:S
Director, Collection SE:S:C
Director, Collection Policy SE:S:C:CP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL: LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC




                                                                       Page   9
